TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Review of the Internal Revenue
                                 Service’s Purchase
                               Card Violations Report



                                           July 25, 2014

                              Reference Number: 2014-10-048




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


REVIEW OF THE INTERNAL REVENUE                      TIGTA identified two additional purchase card
SERVICE’S PURCHASE CARD                             misuse cases pending final IRS action and one
VIOLATIONS REPORT                                   pending TIGTA investigation.
                                                    The difference in what the IRS and TIGTA
                                                    reported both for confirmed and pending cases
Highlights                                          is primarily related to the IRS’s interpretation of
                                                    the term “reportable violation.” The IRS did not
Final Report issued on July 25, 2014                consider confirmed purchase card misuse a
                                                    reportable violation if a loss to the Government
Highlights of Reference Number: 2014-10-048         occurred but the Government was “made whole”
to the Internal Revenue Service Deputy              by repayment by the responsible cardholder or if
Commissioner for Operations Support.                the Government purchase card was credited for
                                                    return of the prohibited goods.
IMPACT ON TAXPAYERS
                                                    TIGTA also reviewed the IRS’s current credit
Federal audits of agency charge card programs       card guidance and determined that IRS policies
have found varying degrees of fraud, waste, and     and controls have been established that are
abuse. On October 5, 2012, the President            designed to mitigate the risk of fraud and
signed into law the Government Charge Card          inappropriate Government travel and purchase
Abuse Prevention Act of 2012 (Charge Card           charge card practices, including controls that
Act), which reinforced Administration and           address centrally billed travel card accounts.
congressional efforts to prevent fraud, waste,      Finally, TIGTA reviewed a draft version of the
and abuse of Governmentwide charge card             Department of the Treasury Charge Card
programs.                                           Management Plan and determined that it had
WHY TIGTA DID THE AUDIT                             been updated to reflect the Charge Card Act’s
                                                    new internal control requirements related to
This review was initiated because the Charge        centrally billed travel card accounts.
Card Act requires each agency with more than
$10 million in purchase card spending in the        WHAT TIGTA RECOMMENDED
prior fiscal year to submit semiannual reports of   TIGTA made no recommendations in this report.
employee purchase card violations and the           However, key IRS officials reviewed this report
disposition of those violations, including          prior to its issuance and agreed with the facts
disciplinary actions taken. The overall objective   and conclusions presented.
of this review was to assess the IRS’s
implementation of and compliance with the law’s
requirements for the period October 1, 2013, to
March 31, 2014.
WHAT TIGTA FOUND
TIGTA found that the IRS identified and reported
two instances of confirmed purchase card
misuse and three instances of purchase card
misuse pending investigation in its Purchase
Card Violations Report. However, TIGTA’s
independent review identified three additional
cases of confirmed purchase card misuse during
the reporting period that resulted in an agency
action taken in response. The five confirmed
purchase card misuse cases all related to
prohibited purchases for nominal sums, totaling
about $300. In addition to the three cases
pending investigation identified by the IRS,
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 25, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Review of the Internal Revenue Service’s
                             Purchase Card Violations Report (Audit # 201410010)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Purchase
 Card Violations Report. The overall objective of this review was to assess the IRS’s
 implementation of and compliance with the Government Charge Card Abuse Prevention Act of
 20121 for the period October 1, 2013, to March 31, 2014.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, key IRS officials reviewed this report prior to
 its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report. If you have
 any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for Audit
 (Management Services and Exempt Organizations).




 1
  Pub.L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget issued OMB
 Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012, with
 implementation guidance for the act. On November 18, 2013, the General Services Administration issued Smart
 Bulletin No. 021, OMB Memorandum M-13-21 and Charge Card Compliance Summary, which included a summary
 compliance checklist for agency use and sample reporting templates.
                                          Review of the Internal Revenue Service’s
                                             Purchase Card Violations Report




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Generally Complied With the
          Government Charge Card Abuse Prevention Act of 2012
          Requirements With a Few Exceptions .......................................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Internal Revenue Service Purchase Card
          Violations Report .......................................................................................... Page 11
          Review of the Internal Revenue Service’s
             Purchase Card Violations Report




               Abbreviations

ALERTS   Automated Labor and Employee Relations Tracking System
CCS      Credit Card Services
IRS      Internal Revenue Service
OMB      Office of Management and Budget
PARIS    Performance and Results Information System
TIGTA    Treasury Inspector General for Tax Administration
                                     Review of the Internal Revenue Service’s
                                        Purchase Card Violations Report




                                              Background

Government purchase cards are an affordable and convenient means for making electronic
payments, and the Federal Acquisition Regulation1 designates the purchase card as the preferred
method for purchases up to the micro-purchase limit.2 While the use of purchase cards has been
credited with reducing administrative costs and simplifying the acquisition process, audits of
Federal agency purchase card programs have found varying degrees of fraud, waste, and abuse.
One of the most common risk factors identified is a weak internal control environment. In a
prior audit of purchase cards,3 we found that while some controls were working as intended, the
Internal Revenue Service’s (IRS) purchase card program lacked consistent oversight to identify
and address inappropriate use.
On October 5, 2012, the President signed into law the Government Charge Card Abuse
Prevention Act of 2012 (Charge Card Act),4 which requires all executive branch agencies to
establish and maintain safeguards and internal controls for Government charge card programs.
The Charge Card Act establishes additional reporting and audit requirements for certain Offices
of Inspectors General, including the Treasury Inspector General for Tax Administration
(TIGTA). The Charge Card Act requires each agency with more than $10 million in purchase
card spending in the prior fiscal year to submit semiannual reports of employee purchase card
violations and the disposition of those violations, including disciplinary actions taken.5
To ensure compliance with the Charge Card Act, each agency head is required to provide an
annual certification that the appropriate policies and controls are in place or that corrective action
has been taken to mitigate risk of fraud or inappropriate travel and purchase charge card
practices. The annual certification is included as part of the existing annual assurance statement
under the Federal Managers’ Financial Integrity Act of 1982.6 In addition, each agency



1
  48 C.F.R. §13.201(b) (Revised as of Oct. 1, 2013).
2
  $3,000 ($2,500 for services; $2,000 for construction).
3
  TIGTA, Ref. No. 2013-10-056, The Purchase Card Program Lacks Consistent Oversight to Identify and Address
Inappropriate Use (June 2013).
4
  Pub. L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget (OMB) issued
OMB Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012. On
November 18, 2013, the General Services Administration issued Smart Bulletin No. 021, OMB Memorandum
M-13-21 and Charge Card Compliance Summary, which included a summary compliance checklist for agency use
and sample reporting templates.
5
  An administrative or internal control process inconsistency that does not result in fraud, loss to the Government, or
misappropriation of funds or assets (whether or not recouped) is not a reportable violation for the purposes of the
semiannual report.
6
  Pub. L. No. 97-255 (Sept. 1982), 31 U.S.C. 3512(d)(2) (Dec. 2013).
                                                                                                               Page 1
                                    Review of the Internal Revenue Service’s
                                       Purchase Card Violations Report



continues to maintain and submit annually charge card management plans no later than
January 31, as required by OMB Circular A-123, Appendix B.7
Additional requirements of the Charge Card Act include augmentation of existing internal
controls. At a minimum, all agency charge card management plans are required to be reviewed
and updated to reflect the following internal control activities related to centrally billed travel
card accounts:8
       To prevent an individual from being reimbursed for a bill already paid by the
        Government by ensuring that agency officials who approve or settle official travel verify
        that charges paid directly by the Government to the bank are not also reimbursed to an
        employee or an employee’s individually billed account.
       To prevent the Government from spending money on unallowable or erroneous
        charges by ensuring that the agency shall dispute these charges and track the status of
        disputed transactions to ensure appropriate resolution.
       To prevent the Government from spending money on unused tickets by verifying that
        the agency (travel management center or service or commercial travel office) submits
        requests to servicing common carriers for refunds of fully or partially unused tickets and
        tracks the status of these tickets to ensure resolution.
According to the IRS, between October 1, 2013, and March 31, 2014, the IRS purchase card
program included 3,764 purchase cardholders. These purchase cardholders made over
27,485 purchases totaling approximately $10.3 million with their cards.
OMB Circular A-123 provides guidance that establishes minimum requirements for Government
purchase card programs and suggested best practices. The IRS’s purchase card policy is set forth
in the Purchase Card Program Handbook and the Purchase Card Guide.9 The March 2014 IRS
Restricted Purchase List also provides cardholders with detailed information on what is and is
not an acceptable purchase. In addition, the Travel Card Program Handbook10 provides policy
for centrally billed travel cards.




7
  OMB, OMB Circular No. A-123, Appendix B (Revised), Improving the Management of Government Charge Card
Programs (Jan. 2009)
8
  Centrally billed travel card accounts are corporate accounts issued to an agency business unit that may be used
only to pay for common carrier transportation when an employee is authorized to perform official travel but did not
receive an individually billed account card (e.g., new employees who have not been issued a travel card or
infrequent travelers). Centrally billed accounts are paid directly by the Government to the card-issuing entity.
9
  Internal Revenue Manual 1.32.6 (Jan. 21, 2010) and Document 9185, Internal Revenue Service Purchase Card
Guide (Jan. 2012).
10
   Internal Revenue Manual 1.32.4 (Oct. 17, 2012).
                                                                                                           Page 2
                                   Review of the Internal Revenue Service’s
                                      Purchase Card Violations Report



Within the IRS purchase card program, the Office of Procurement is responsible for providing
policy guidance, and the Credit Card Services (CCS) Branch11 is responsible for managing and
providing oversight. In addition, the CCS Branch is responsible for tracking and reporting to the
Labor and Employee Relations function (hereafter referred to as Labor Relations)12 instances of
alleged inappropriate purchase card use as part of the process for determining and implementing
the appropriate disciplinary action. The Chief Financial Officer and CCS Branch share joint
responsibility for the centrally billed travel card program. The Chief Financial Officer is
responsible for program policy, while the CCS Branch is responsible for program administration
and procedures.
The IRS inputs employee misconduct allegations, including those involving purchase cards, into
the Automated Labor and Employee Relations System (ALERTS). The ALERTS records
employee misconduct allegations and cases and management’s responses. TIGTA’s Office of
Investigations maintains the Performance and Results Information System (PARIS). The PARIS
provides TIGTA with the ability to manage and account for the thousands of complaints
received, investigations initiated, and leads developed from law enforcement initiatives.
We held discussions with and/or analyzed information obtained from CCS Branch management
and staff located in Cincinnati, Ohio, Nashville, Tennessee, and Seattle, Washington; IRS
Counsel management located in Washington, D.C.; Human Capital Office Labor Relations
management and staff located in Laguna Niguel, California, Walnut Creek, California, and
Kansas City, Missouri; and the Office of the Deputy Chief Financial Officer located in
Washington, D.C., during the period March 2014 through July 2014.
It is important to note that these IRS and TIGTA reviews relate to the proper identification and
reporting of known cases of purchase card misuse. Fraud and abuse not identified by the IRS
systems and management controls were beyond the scope of this audit. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




11
   The CCS Branch is a part of the Employee Support Services function within the Agency-Wide Shared Services
function.
12
   The Labor and Employee Relations function is a function in the Human Capital Office within the Workforce
Relations Division. It is the IRS office responsible for advising and supporting managers on employee conduct and
performance matters.
                                                                                                          Page 3
                                  Review of the Internal Revenue Service’s
                                     Purchase Card Violations Report




                                    Results of Review

The Internal Revenue Service Generally Complied With the
Government Charge Card Abuse Prevention Act of 2012
Requirements With a Few Exceptions
Semiannual report on IRS purchase card violations and actions taken by IRS
management in response
We found that the IRS identified and reported two instances of confirmed purchase card misuse
and three instances of purchase card misuse pending investigation in its Purchase Card
Violations Report. A copy of the IRS’s Purchase Card Violations Report is located in
Appendix IV. However, in addition to the two confirmed cases of purchase card misuse
identified by the IRS, TIGTA’s independent review identified three additional instances of
confirmed purchase card misuse during the reporting period that resulted in an agency action
taken in response. These confirmed purchase card misuse cases generally involved prohibited
purchases of food, paper cups and plates, plastic cutlery, thank-you bags, dish soap, and a
wet/dry vacuum. The cost of the five confirmed purchase card misuse cases were all for nominal
sums, totaling about $300.
In addition to the three purchase card misuse cases pending investigation reported by the IRS,
TIGTA identified two additional purchase card misuse cases pending final IRS action and one
potential purchase card violation pending TIGTA investigation. In two of the cases pending
investigation or final agency action, the responsible cardholder allegedly altered receipts
supporting the prohibited item purchase.
In order to conduct our analysis, we reviewed the IRS’s Purchase Card Violations Report; CCS
Branch inappropriate use forms, logs, and other documentation; and information from TIGTA’s
Office of Investigations on any ongoing or completed purchase card misuse investigation cases
and complaints occurring during the review period. Finally, we followed up on the status of
three cases reported as pending in our prior review.13
The difference in what the IRS and TIGTA reported both for confirmed and pending cases is
primarily related to the IRS’s interpretation of reportable violations. The IRS did not consider
confirmed purchase card misuse a reportable violation if a loss to the Government occurred and
was subsequently resolved. Specifically, the IRS did not report any cases in which the
Government was “made whole” by repayment by the responsible cardholder or in which the

13
  TIGTA, Ref. No. 2014-10-014, Review of the Internal Revenue Service’s Purchase Card Violations Report and
the Status of Government Charge Card Recommendations (Jan. 2014).
                                                                                                      Page 4
                              Review of the Internal Revenue Service’s
                                 Purchase Card Violations Report



Government purchase card was credited for return of the prohibited goods. In addition, the IRS
did not report the one misuse case pending TIGTA investigation because it does not have access
to TIGTA records.

Review of the Department of the Treasury Charge Card Management Plan
The IRS is required to comply with the Department of the Treasury Charge Card Management
Plan. We reviewed a draft version of the plan and determined that it had been updated to reflect
the new Charge Card Act’s internal control requirements related to centrally billed travel card
accounts. A final version of the plan was not available during our audit period for inspection.
As such, we will review the final plan and confirm whether it has been updated to include the
new travel card controls required by the Charge Card Act in our next semiannual report due in
January 2015.
We also reviewed the IRS’s current credit card guidance and determined that policies and
controls were in place to mitigate the risk of fraud and inappropriate Government travel and
purchase charge card practices, to include internal controls that address centrally billed travel
card accounts. The IRS stated that it had not added additional travel card oversight reviews to
ensure compliance with the Charge Card Act and its new internal control requirements. We will
monitor the IRS’s updates to policies and procedures, training plans, and oversight reviews with
respect to compliance with the Charge Card Act in our future audits.




                                                                                           Page 5
                                    Review of the Internal Revenue Service’s
                                       Purchase Card Violations Report



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’s implementation of and compliance with the
Government Charge Card Abuse Prevention Act of 2012 (Charge Card Act)1 requirements for
the period October 1, 2013, to March 31, 2014.2 To accomplish this objective, we:
I.       Determined how the IRS implemented legislative requirements of the Charge Card Act
         for the period October 1, 2013, to March 31, 2014.
         A. Reviewed the Charge Card Act, related OMB implementing guidance M-13-21,3
            OMB Circular A-123 (Appendix B),4 OMB Circular A-50,5 and any current
            Department of the Treasury and IRS policies and procedures related to Government
            charge cards and specifically purchase cards.
         B. Interviewed key IRS personnel from the CCS Branch, the Office of the Chief
            Financial Officer, and the Human Capital Office’s Labor and Employee Relations
            function (hereafter referred to as Labor Relations)6 to determine:
             1. The approach used to prepare the IRS’s Purchase Card Violations Report for the
                period October 1, 2013, to March 31, 2014, and if it was reasonable.
             2. How the IRS determined when purchase cards had been misused by IRS
                employees.




1
  Pub. L. No. 112-194 (Oct. 2012). On September 6, 2013, the Office of Management and Budget (OMB) issued
OMB Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of 2012
(Sept. 2013). On November 18, 2013, the General Services Administration issued Smart Bulletin No. 021, OMB
Memorandum M-13-21 and Charge Card Compliance Summary, which included a summary compliance checklist
for agency use and sample reporting templates.
2
  It is important to note that these IRS and TIGTA reviews relate to the proper identification and reporting of known
cases of purchase card misuse. Fraud and abuse not identified by the IRS systems and management controls were
beyond the scope of this audit.
3
  OMB, OMB Memorandum M-13-21, Implementation of the Government Charge Card Abuse Prevention Act of
2012 (Sept. 2013).
4
  OMB, OMB Circular No. A-123, Appendix B (Revised), Improving the Management of Government Charge Card
Programs (Jan. 2009).
5
  OMB, OMB Circular No. A-50, Audit Followup (Sept. 1982).
6
  The Labor and Employee Relations function is a function in the Human Capital Office within the Workforce
Relations Division. It is the IRS office responsible for advising and supporting managers on employee conduct and
performance matters.
                                                                                                             Page 6
                                    Review of the Internal Revenue Service’s
                                       Purchase Card Violations Report



             3. What adverse personnel actions the IRS could take in response to purchase card
                misuse.
II.      Reviewed confirmed purchase card (and convenience check) violations by IRS
         employees and identified the actions the IRS had taken as a result of these violations.7
         A. Determined the total number of confirmed violations involving misuse of a purchase
            card for the specified period. We determined whether these violations constituted:
            (1) abuse;8 (2) fraud;9 or (3) other loss, waste, or misuse.10 We reviewed 93 cases
            from the ALERTS database and determined that 91 were administrative, one was
            reportable as confirmed purchase card misuse, and one was reportable as a pending
            violation. We reviewed CCS Branch inappropriate use forms, logs, and other
            documentation and determined that two additional purchase card misuse cases were
            reportable confirmed violations. Finally, we identified two misuse cases that we
            identified as pending in our prior review of the IRS’s Purchase Card Violations
            Report that were now reportable as confirmed.
         B. Determined the number of adverse personnel actions, punishment, or other actions
            taken in response to each reportable violation involving misuse of a purchase card for
            the specified period. We further determined whether the actions involved:
            (1) demotions, (2) reprimands, (3) suspensions, (4) removals, or (5) any other adverse
            personnel actions.11 Of the five reportable confirmed purchase card misuse cases
            identified in Step II.A., agency action was taken in four cases in the form of written
            counseling. In the remaining case, management took no action against the
            responsible cardholder and did not require the cardholder to reimburse the
            Government for the prohibited purchase.
         C. Determined the total number and status of all pending violations for the specified
            period. We determined if these pending violations were: (1) pending investigation,
            (2) pending hearing, (3) pending final agency action, or (4) pending decision on
            appeal.12 We reviewed 93 cases from the ALERTS database and determined that


7
  The review period is from October 1, 2013, through March 31, 2014.
8
  Abuse involves behavior that is deficient or improper when compared with behavior that a prudent person would
consider reasonable and necessary business practice given the facts and circumstances. Abuse also includes misuse
of authority or position for personal financial interests or those of an immediate or close family member or business
associate. Abuse does not necessarily involve fraud or noncompliance with provisions of laws, regulations,
contracts, or grant agreements.
9
  Fraud involves obtaining something of value through willful misrepresentation. Whether an act is, in fact, fraud is
a determination to be made through the judicial or other adjudicative system and is beyond our auditors’
professional responsibility
10
   These three categories were identified in OMB Memorandum M-13-21.
11
   These five categories were identified in OMB Memorandum M-13-21.
12
   These four categories were identified in OMB Memorandum M-13-21.
                                                                                                             Page 7
                              Review of the Internal Revenue Service’s
                                 Purchase Card Violations Report



           91 were administrative, one was reportable as confirmed purchase card misuse, and
           one was a reportable violation pending agency action. We reviewed CCS Branch
           inappropriate use forms, logs, and other documentation and identified three purchase
           card misuse cases that were pending agency action. We identified one additional
           pending purchase card case by reviewing information provided by TIGTA’s Office of
           Investigations. In addition, we identified one misuse case that we identified as
           pending in our prior review of the IRS’s Purchase Card Violations Report that was
           still pending final agency action.
III.   Reviewed the Department of the Treasury Charge Card Management Plan to ensure that
       it included the new requirements for the IRS centrally billed travel card accounts as cited
       in the Charge Card Act. However, only a draft version of the plan was available, and the
       final version was not available for inspection during our review period. As a result, we
       will review the plan (to ensure that it has been updated to include the new controls over
       travel cards required by the act) in our next semiannual report due in January 2015. We
       reviewed the IRS Internal Revenue Manual and other internal guidance to determine if it
       had been updated to reflect the new controls related to centrally billed accounts outlined
       in the Charge Card Act.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS internal policies and procedures and
other guidance pertaining to travel cards, purchase cards, and convenience checks and the CCS
Branch inappropriate use forms, logs, and supporting documentation. To assess those controls,
we reviewed IRS’s methodology for reporting confirmed and pending violations in the Purchase
Card Violations Report and analyzed inappropriate use forms, logs, and supporting
documentation as well as cases of confirmed and pending purchase card violations contained
within the ALERTS and PARIS databases. We also reviewed IRS policies and procedures
related to the Charge Card Act, including controls over centrally billed travel card accounts.




                                                                                            Page 8
                            Review of the Internal Revenue Service’s
                               Purchase Card Violations Report



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Lauren W. Bourg, Lead Auditor
Evan Close, Audit Evaluator
Rashme Sawhney, Auditor




                                                                                    Page 9
                            Review of the Internal Revenue Service’s
                               Purchase Card Violations Report



                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
IRS Human Capital Officer OS:HC
Director, Employee Support Services OS:A:ESS
Director, Workforce Relations Division OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Deputy Commissioner for Operations Support OS
    Chief Counsel CC
    Chief, Agency-Wide Shared Services OS:A
    Chief Financial Officer OS:CFO
    IRS Human Capital Officer OS:HC




                                                                         Page 10
                                       Review of the Internal Revenue Service’s
                                          Purchase Card Violations Report



                                                                                               Appendix IV

                            Internal Revenue Service
                         Purchase Card Violations Report
    PURCHASE CARD VIOLATION DATA
    I. Summary description of confirmed violations involving misuse                       October 1, 2013, to
    of a purchase card or integrated card.                                                 March 31, 2014
    a. Abuse*1                                                                                    0
    b. Fraud*                                                                                     0
    c. Other loss, waste, or misuse: Cardholders purchased personal use items.                    2
    Violation #1 (paper plates, napkins, etc.); Violation #2 (paper cups and dish soap)

    II. Summary description of all adverse personnel actions,
    punishment, or other actions taken in response to each reportable                     October 1, 2013, to
    violation involving misuse of a purchase or integrated card.**                         March 31, 2014
    a. Documentation of Counseling: Cautionary letter issued.                                     1
    b. Demotion                                                                                   0
    c. Reprimand                                                                                  0
    d. Suspension                                                                                 0
    e. Removal                                                                                    0
    f. Other (no action taken): Closed without IRS management action.                             1
                                                                                          October 1, 2013, to
    III. Status of all pending violations.                                                 March 31, 2014
    a. Number of violations pending investigation2                                                3
    b. Number of violations pending hearing                                                       0
    c. Number of violations pending final agency action                                           0
    d. Number of violations pending decision on appeal                                            0
Source: IRS review of inappropriate use forms and logs and case information contained in the ALERTS database.


1
  * Terms used are defined in the Government Auditing Standards (Government Accountability Office,
GAO-12-331G, Government Auditing Standards (Dec. 2011) see: http://www.gao.gov/yellowbook ).
** This summary is for adverse personnel actions, not for administrative errors.
2
  Because the IRS does not always have access to all case and complaint information contained in the PARIS
database, discrepancies in reportable figures may occur for this particular category.
                                                                                                        Page 11
